SIGAR                                           Special Inspector General for
                                                 Afghanistan Reconstruction




    OFFICE OF SPECIAL PROJECTS



USAID ASSISTANCE TO AFGHANISTAN
RECONSTRUCTION: $13.3 BILLION OBLIGATED
BETWEEN 2002 AND 2013




   This product was completed under SIGAR’s Office of Special Projects, the Special
  Inspector General’s response team created to examine emerging issues in prompt,
   actionable reports to federal agencies and the Congress. The work was conducted
 pursuant to the Special Inspector General’s authorities and responsibilities under the
            National Defense Authorization Act for FY 2008 (P.L. 110-181).




                                                  JANUARY 2014
                                                                                SIGAR-14-27-SP
                                                                                                January 23, 2014

Congressional Committees:
The United States appropriated $96.57 billion between 2002 and June, 2013 for Afghanistan reconstruction,
principally for the Departments of Defense (DOD) and State (State) and the United States Agency for
International Development (USAID).
DOD, State, and USAID rely extensively on contractors and other implementing partners to undertake
reconstruction projects in Afghanistan. To provide more effective oversight and to meet our reporting
requirements to monitor contracts and reconstruction activities in Afghanistan, the Office of the Special
Inspector General for Afghanistan Reconstruction (SIGAR) has in the past requested information about how
and where U.S. funds appropriated for the reconstruction of Afghanistan are spent. In February 2013, SIGAR
issued an inquiry requesting that all U.S. Government agencies conducting reconstruction activities in
Afghanistan provide comprehensive information on all contracts, grants, and cooperative agreements awarded
for those activities, from 2002 through the date of the inquiry. This report provides an analysis of the
information obtained from USAID’s response.
To determine the reliability of the data provided, we communicated regularly with USAID officials and
documented how data was collected and reported to us. We then checked the information supplied by USAID
against publicly available databases of U.S. government contracts and assistance agreements. We found some
inconsistencies but, after consultation with USAID officials, concluded that the data were sufficiently reliable to
illustrate the relative magnitude of the obligations made to contractors and implementing partners and the
financing mechanisms used.
We conducted this effort from February to August 2013. This product was completed under SIGAR’s Office of
Special Projects, the SIGAR response team created to examine emerging issues in prompt, actionable reports
to federal agencies and the Congress. The work was conducted under the authority of Public Law No. 110-181,
as amended; the Inspector General Act of 1978; and the Inspector General Reform Act of 2008.




                                                                      Sincerely,




                                                                      John F. Sopko
                                                                      Special Inspector General
                                                                         for Afghanistan Reconstruction




SIGAR-14-27-SP Afghanistan Reconstruction: USAID Contracts, Cooperative Agreements and Grants               Page 1
Summary
According to SIGAR analysis of USAID data, USAID obligated $13.3 billion for reconstruction in Afghanistan
between the beginning of fiscal year 2002 and June 2013. USAID awarded these funds to implementing
partners including multilateral organizations, non-governmental organizations, for-profit corporations, Afghan
government entities, and U.S. government entities. USAID legal instruments for reconstruction assistance in
Afghanistan include contracts, grants, cooperative agreements, and government to government (G2G)
agreements.
Contracts were the most commonly-used legal instrument, accounting for over 50 percent of total awards. The
project sector with the largest portion of total awards was the Construction and Infrastructure project sector,
which accounted for 31 percent of the total $13.3 billion in awards.
Of the 203 organizations that received USAID reconstruction awards, the top-ten recipients by total award
amount received 58 percent of the total $13.3 billion. The World Bank was the top recipient of total funds from
USAID with $1.7 billion in total awards. The World Bank administers the Afghanistan Reconstruction Trust Fund
(ARTF) which provides financing for the Government of Afghanistan’s budget and supports World Bank
reconstruction projects. The top for-profit entity by total awards was a joint venture between the Louis Berger
Group, Incorporated and the Black and Veatch Special Projects Corporation (LBG/B&V) with $1.1 billion in total
awards. The LBG/B&V joint venture is implementing USAID’s Afghanistan Infrastructure and Rehabilitation
Program (AIRP). The AIRP is focused on building and improving Afghan energy and transportation
infrastructure. USAID awarded Afghan government entities approximately $688 million in G2G agreements.
The top Afghan government recipient of USAID reconstruction funds was the government-owned electric utility
Da Afghanistan Breshna Sherkat (DABS). DABS received the USAID award in order to fund the Power
Transmission Expansion and Connectivity Project, a project to improve Afghanistan’s electricity transmission
system, and the installation of a second turbine at the Kajaki Dam in Helmand Province.
Of the total reported awards between the beginning of fiscal year 2002 and June 2013, 73 percent, or $9.8
billion, are reported by USAID as either completed or inactive.


Background
USAID funds its activities in Afghanistan through the Economic Support Fund (ESF). The ESF is appropriated by
the U.S. Congress to advance U.S. interests by helping countries meet short- and long-term political, economic,
and security needs. As of June 30, 2013, Congress had appropriated $16.65 billion to the ESF for
reconstruction activities in Afghanistan.
USAID works with implementing partners to carry out reconstruction activities in Afghanistan. Reconstruction
funds are used to build or rebuild the physical infrastructure of Afghanistan, establish training or technical
assistance programs for the Afghan government, deliver relief assistance to the people of Afghanistan, and
provide security or other support functions to facilitate reconstruction efforts. Types of implementing partners
include for-profit corporations, multilateral organizations, non-governmental organizations (NGOs), Afghan
government agencies, and U.S. government agencies. USAID awards contracts, grants, and cooperative
agreements to these implementing partners. In general, U.S. Government agencies use contracts to acquire
property or services for the direct benefit or use of agencies or another government entity. U.S. Government
agencies use grants and cooperative agreements to provide funds and/or technical assistance to help a
recipient accomplish an objective. Cooperative agreements are appropriate when the awarding agency expects




SIGAR-14-27-SP Afghanistan Reconstruction: USAID Contracts, Cooperative Agreements and Grants             Page 2
to be substantially involved in carrying out the objective of a given project1. Grants are appropriate when the
U.S. agency does not expect to be substantially involved in carrying out the project or activity. In Afghanistan,
USAID also uses G2G agreements. G2G agreements deliver “on-budget” assistance to Afghan government
entities in order to cover operating costs of the recipient and to fund Afghan government-implemented
reconstruction projects. On-budget assistance is funding that is provided directly to partner government
entities and is intended to allow the recipient government to develop the institutional capacity to manage
budgeting and acquisition processes. USAID also transfers funds, via contracts, to other U.S. Government
agencies for reconstruction and reconstruction-support activities in Afghanistan.
USAID’s Mission in Kabul awards and manages contracts, cooperative agreements, grants, and G2G
agreements to support Afghan reconstruction.



USAID REPORTED OBLIGATING $13.3 BILLION FOR AFGHANISTAN RECONSTRUCTION IN
CONTRACTS, GRANTS, COOPERATIVE AGREEMENTS, AND G2G AGREEMENTS BETWEEN 2002
AND JUNE 2013
USAID reported obligating $13.3 billion in 406 contracts,
grants, cooperative agreements, and G2G agreements for
reconstruction in Afghanistan between the beginning of
2002 and June 2013. Of the $13.3 billion in total awards,
USAID reportedly obligated:

           $6.9 billion, or 51 percent of total awards, in 246
            contracts;
           $3.2 billion, or 24 percent of total awards, in 99
            cooperative agreements;
           $2.6 billion, or 19 percent of total awards, in 44
            grants; and
           $688 million, or 5 percent of total awards, in 16
            G2G agreements.

Figure 1 illustrates the distribution of obligated funds
                                                                           Figure 1: USAID Obligations Made Against
among contracts, cooperative agreements, grants, and G2G
                                                                           Contracts, Cooperative Agreements, Grants, and
agreements.2 The following sections provide more detailed                  G2G Agreements for Afghanistan Reconstruction,
breakdowns of USAID data on assistance instruments                         2002 to June 2013 (dollars in millions)
awarded in Afghanistan.
                                                                           Note: Totals affected by rounding.




1Agencies may award cooperative agreements and grants to individuals, organizations, nonprofit, or for-profit entities.
However, if a for-profit entity is awarded a cooperative agreement or grant, it may not earn a profit.
2   All tables and figures included in this report represent SIGAR analysis of USAID data.




SIGAR-14-27-SP Afghanistan Reconstruction: USAID Contracts, Cooperative Agreements and Grants                        Page 3
The Construction and Infrastructure Project Sector Had The Largest Proportion of Total
Awards, with $4.2 Billion, or 31 Percent of Total Awards.
We identified ten project sectors of USAID awards 3. “Construction and Infrastructure” had the highest amount
of total awards with $4.2 billion, of the $13.3 billion in total awards. “Program Support”, which includes
Program Design and Learning and Administration and Oversight funding, funds intended to help support the
USAID Mission’s implementation of its development programming. Program Support included funding to multi-
lateral efforts such as the ARTF as well as on-budget support to Afghan government institutions. “Agriculture”
had the third highest total, with $1.7 billion in total awards. Table 1 includes the identified sectors as well as
the total obligations for each sector as well as the percentage of total awards for each sector.
                        Table 1 –USAID Awards by Sector for Reconstruction in Afghanistan 2002
                        to June 2013
                                                                        Value of    Percentage
                          Project Sector                             Obligations        of Total
                                                                     ($ Millions)   Obligations
                          Construction and Infrastructure               4,175.2         31.32%
                          Program Support                               1,958.5         14.69%
                          Agriculture                                   1,732.5         13.00%
                          Democracy and Governance                      1,635.0         12.26%
                          Stabilization                                 1,342.0         10.07%
                          Economic Growth                                 955.4          7.17%
                          Health                                          697.5          5.23%
                          Education                                       543.5          4.08%
                          Executive Office                                290.5          2.18%
                          Other Oversight and Financial
                                                                               .4        .003%
                          Management
                          Grand Total (17)                             13,330.3           100%
                        Note: Totals affected by rounding.


Of the 406 Reported USAID Awards, 73 percent are Inactive or Complete
Of the 406 contracts, cooperative agreements, grants, and G2G agreements that USAID awarded to
implementing partners for the period between 2002 and June 2013, 108 awards, or 27 percent, were active
and 298 awards, or 73 percent, were inactive or completed 4, as of August 7, 2013 (see figure 2). Active
awards account for $3.5 billion, including $1.8 billion in contracts, $996 million in cooperative agreements,
$659 million in G2G agreements, and $4.2 million in grants. Inactive awards account for $9.8 billion, including



3USAID categorizes awards within thirteen sectors or sub-agencies. For clarity and based upon the project descriptions
within each USAID sector, SIGAR combined awards under the “Construction” sector with awards under the “Infrastructure”
sector, two “Program Support” sectors under two different USAID offices, and awards under the “Office of the Inspector
General” and “Office of Financial Management” (under the category “Oversight and Financial Management”).
4 An active award is an award whose period of performance has not ended. An inactive award is an award for which the
period of performance has ended but USAID has not yet issued an administrative modification to officially close out. A
closed award is an award whose period of performance has ended and has been officially closed out by USAID.




SIGAR-14-27-SP Afghanistan Reconstruction: USAID Contracts, Cooperative Agreements and Grants                      Page 4
$5.4 billion in contracts, $2.2 billion in cooperative agreements, $2.2 billion in grants, and $29.1 million in
G2G agreements.




                                   Figure 2: Status of USAID’s $13.3 Billion for
                                   Afghanistan Reconstruction, as of August 7,
                                   2013

The Top Ten Recipients Accounted for About $7.7 Billion or 58 percent of Total Obligations
Our analysis of USAID data indicated that the top ten implementing partners in total awards accounted for
about $7.7 billion, or 58 percent of total obligations. The remaining 42 percent of obligations were awarded to
a total of 193 implementers who averaged $29 million in total awards. The World Bank was the top overall
recipient of USAID funds in Afghanistan, with total awards equal to approximately $1.75 billion. USAID provided
$1.74 billion to the Afghanistan Reconstruction Trust Fund (ARTF), which is administered by the World Bank,
and awarded the Bank a $2 million grant for a project supporting business environment reform in Afghanistan.
International Relief and Development, Inc. (IRD) received the second highest amount of total rewards at
approximately $1.1 billion. Table 2 shows the top ten recipients by total obligation as reported by USAID. Figure
3 demonstrates the percentage of total USAID reconstruction awards received by each of the top ten
recipients.
            Table 2: Top Ten Recipients by Total Obligations ($ Millions), 2002 to June 2013
                                                                                         Total   Percentage
             Implementing Partner                                                  Obligations      of Total
                                                                                   ($millions)    Obligation
             The World Bank                                                             1,746          13%
             International Relief and Development, Inc. (IRD)                           1,061            8%
             The Louis Berger Group, Inc./ Black and Veatch Special
                                                                                       1,051
             Projects Corp Joint Venture (LBG/B&V)                                                      8%
             Development Alternatives, Inc. (DAI)                                      1,017            8%
             Chemonics International, Inc.                                               824            6%
             The Louis Berger Group, Inc. (LBG)                                          699            5%
             United Nations Office of Project Services (UNOPS)                           410            3%
             United Nations Development Program (UNDP)                                   327            2%
             Deloitte Consulting LLP                                                     326            2%
             International Organization for Migration (IOM)                              279            2%
             Sub-Total (10)                                                           $7,740           58%
             Remaining Implementers (193)                                              5,590           42%
             Grand Total (203)                                                       $13,330          100%
             Note: Totals affected by rounding.


SIGAR-14-27-SP Afghanistan Reconstruction: USAID Contracts, Cooperative Agreements and Grants                  Page 5
                                Figure 3: Percentage of Total USAID Funding for Top Ten
                                Recipients, 2002 to June 2013


USAID Reported $6.9 Billion in Contract Obligations for Afghanistan Reconstruction
Our analysis of USAID data identified 126 implementing partners that received approximately $6.9 billion in
obligations through 246 Afghanistan reconstruction contracts from 2002 to June 2013.
The top ten contract recipients in total awards received $5 billion, accounting for over 70 percent of the total
amount of contract awards and approximately 36 percent of total awards. LBG/B&V was the top recipient of
contract awards and the only contractor to receive more than $1 billion. The LBG/B&V joint venture is
implementing USAID’s Afghanistan Infrastructure and Rehabilitation Program (AIRP). The AIRP is focused on
building and improving Afghan energy and transport infrastructure. Development Alternatives Incorporated
(DAI) received the second highest amount of total contract awards. DAI received reconstruction contracts to
implement a variety of governance, stability, and economic development programs. Of the 126 contractors, 73
received total contract obligations of more than $1 million each. Table 3 includes the top ten USAID contract
award recipients in Afghanistan and each entity’s total award amount, the percentage of total contract
obligations, and the percentage of total obligations. See appendix I for all USAID contractors with more than $1
million in contract obligations.




SIGAR-14-27-SP Afghanistan Reconstruction: USAID Contracts, Cooperative Agreements and Grants            Page 6
        Table 3: Obligations Made Against Afghanistan Reconstruction Contracts as Reported by USAID, 2002 to
        June 2013
                                                             Value of    Percentage of
                                                                                            Percentage of
                                                             contract    Total Contract
         Implementing Partner                                                                       Total
                                                          Obligations       Obligations
                                                                                               Obligation
                                                          ($ Millions)
         The Louis Berger Group, Inc./ Black and
         Veatch Special Projects Corp Joint                    1,051            15.32%                 8%
         Venture
         Development Alternatives, Inc.                          886            12.91%                 7%
         Chemonics International, Inc.                           822            11.98%                 6%
         The Louis Berger Group Inc.                             699            10.19%                 5%
         Deloitte Consulting LLP                                 326             4.75%              2.44%
         Aircraft Charter Solutions                              231             3.36%              1.73%
         Black and Veatch Special Projects
                                                                 230             3.35%              1.72%
         Corporation
         Associates in Rural Development                         223             3.26%             1.68%
         Creative Associates International                       206             3.00%             1.55%
         AECOM International Development                         181             2.64%             1.36%
         Sub-Total (10)                                        4,854            69.75%            37.84%
         Remaining Implementers (116)                          2,006            29.24%            15.05%
         Grand Total (126)                                    $6,860              100%                51%
        Note: Totals affected by rounding.


USAID Reported About $3.2 Billion in Cooperative Agreement Obligations for Afghanistan
Reconstruction
Our analysis of USAID data identified 62 implementing partners who received approximately $3.2 billion in
obligations through 99 cooperative agreements during the reporting period.
The top-ten recipients of cooperative agreements in total awards received approximately $2.3 billion, or over
70 percent of the total amount of cooperative agreement awards and 17 percent of total USAID awards. Relief
and International Relief and Development (IRD), the top recipient, received five cooperative agreements worth
a total of $895 million. IRD cooperative agreements included work on the Strategic Provincial Road – Southern
and Eastern Afghanistan Project, the Southern Regional Agriculture Development Program, The Afghanistan
Civilian Assistance Program, and the Afghanistan Vouchers for Increased Production in Agriculture Program.
The International Organization for Migration (IOM) received five cooperative agreements together worth $279
million. IOM worked with USAID to implement a variety of health, economic development, and education
programs. Of the 62 implementing partners who received cooperative agreements, 55 received total
obligations of more than $1 million each. See appendix I for a complete list of cooperative agreement
implementing partners with more than $1 million in total obligations. Table 4 includes the top ten recipients of
USAID cooperative agreements, along with each entity’s total award amount.




SIGAR-14-27-SP Afghanistan Reconstruction: USAID Contracts, Cooperative Agreements and Grants                  Page 7
        Table 4: Implementing Partners and Obligations Made Against Afghanistan Reconstruction Cooperative
        Agreements as Reported by USAID, 2002 to June 2013
                                                             Value of    Percentage of
                                                         cooperative       cooperative     Percentage of
          Implementing Partner                            agreement         agreement               total
                                                          obligations       obligations        obligation
                                                          ($ Millions)
          International Relief and Development,
                                                                 895           27.90%              6.71%
          Inc.
          International Organization for Migration               279            8.70%              2.09%
          Central Asia Development Group                         274            8.55%              2.06%
          The Asia Foundation                                    157            4.90%              1.18%
          Academy for Educational Development                    146            4.55%              1.09%
          Consortium for Elections and Political
                                                                 141            4.41%               .98%
          Processes
          Development Alternatives Incorporated                  131            4.09%              .98%
          Management Sciences for Health                         130            4.08%              .98%
          CARE International                                      99            3.11%              .75%
          Mercy Corps                                             74            2.31%              .56%
          Sub-Total (10)                                       2,328           72.57%            17.46%
          Remaining Implementing Partners (52)                   880           27.43%             6.60%
          Grand Total (62)                                     3,208            100%                 24%
         Note: Totals affected by rounding.


USAID Reported About $2.6 Billion in Grant Obligations for Afghanistan Reconstruction
Our analysis of USAID data identified 20 implementing partners that received 44 Afghanistan reconstruction
grants, totaling $2.6 billion from 2002 to 2013.
The top-ten recipients in total awards of USAID reconstruction grants in Afghanistan received approximately
$2.57 billion and accounted for over 99 percent of total grant awards. The World Bank was the top grant
recipient with $1.7 billion in grants to the World Bank-administered ARTF. This $1.7 billion accounted for
almost 68 percent of USAID’s total grant obligations. The ARTF provides financing for the Government of
Afghanistan’s budget. The UN Office of Project Services (UNOPS) received the second highest amount of grant
obligations with $372 million in total awards. UNOPS used USAID grant funding for a variety of reconstruction
projects including health, education, and governance infrastructure building and humanitarian relief. Of the 20
recipients of USAID grants, 13 received obligations of $1 million or more. Table 5 includes the top-ten
recipients of USAID grants by total awards. See appendix I for a complete list.




SIGAR-14-27-SP Afghanistan Reconstruction: USAID Contracts, Cooperative Agreements and Grants                Page 8
         Table 5: Implementing Partners and Obligations Made Against Afghanistan Reconstruction Grants as
         Reported by USAID, 2002 to June 2013
                                                             Value of
                                                                          Percentage of    Percentage of
                                                              grant
          Implementing Partner                                                    grant             total
                                                           obligations
                                                                            obligations        obligation
                                                           ($ Millions)
          The World Bank                                         1,746          67.85%           10.31%
          United Nations Office of Project Services                372          14.46%            2.79%
          United Nations Development Program                       269          10.45%            2.02%
          World Health Organization                                107           4.17%             .81%
          International Fertilizer Development Center               33           1.26%             .24%
          The Asia Foundation                                       24            .94%             .18%
          Danish International Development Agency                    6            .23%             .05%
          Arzu Incorporated                                          4            .16%             .03%
          Voice for Humanity                                         3            .12%             .02%
          Air Services International                                 2            .09%             .02%
          Sub-Total (10)                                         2,566          99.73%           19.25%
          Remaining Implementing Partners (10)                       7            .27%             .05%
          Grand Total (20)                                       2,573            100%               17%
         Note: Totals affected by rounding.


USAID Reported About $688 Million in Government-to-Government Agreements with the
Afghan Government
Our analysis of USAID data identified 12 Afghan government entities that received $688 million through 16
G2G agreements.
The top recipient, receiving $338 million in two awards, was Da Afghanistan Breshna Sherkat (DABS), the
Afghan government-owned electricity utility. The two G2G agreements awarded to DABS accounted for just
under 50 percent of total USAID on-budget assistance to the Government of Afghanistan. The agreements are
intended to fund the Power Transmission Expansion and Connectivity Project, a project to improve
Afghanistan’s electricity transmission system, and the installation of a second turbine at the Kajaki Dam in
Helmand Province. The Afghan Ministry of Public Health (MoPH) received the second highest amount of USAID
on-budget assistance. USAID funding supported MoPH’s public health services in hospitals and clinics
throughout Afghanistan. Table 6 lists all Afghan government entities that received USAID on-budget assistance
via G2G agreements from 2002 to June 2013.




SIGAR-14-27-SP Afghanistan Reconstruction: USAID Contracts, Cooperative Agreements and Grants               Page 9
            Table 6: USAID On-Budget Obligations to Afghan Government Entities, 2002 to June 2013
                                                                Value of on-    Percentage
                                                                      budget    of total on-    Percentage
              Implementing Partner                                assistance        budget         of Total
                                                                   obligation   assistance       Obligation
                                                                 ($ Millions)   Obligations
              Da Afghanistan Breshna Sherkat                         338.3         49.18%           2.54%
              Ministry of Public Health                             190.29         27.66%           1.43%
              Ministry of Finance                                    37.98          5.52%           0.28%
              Ministry of Mines                                      30.00           4.36%          0.23%
              The Government Of The Islamic Republic of
                                                                     29.17           4.24%          0.22%
              Afghanistan
              Ministry of Agriculture, Irrigation and
                                                                     29.00           4.22%          0.22%
              Livestock
              Ministry of Education                                  20.00           2.91%          0.15%
              Ministry of Finance/Ministry of
                                                                       6.00           .87%          0.05%
              Transportation
              Ministry of Finance/ Independent
                                                                       4.90           .71%          0.04%
              Directorate of Local Governance
              Afghanistan National Independent Peace
                                                                       1.25           .18%          0.01%
              and Reconciliation Commission
              Ministry of Communication and Information                1.00           .15%          0.01%
              Afghanistan Reconstruction and Planning
                                                                       0.02          .003%          0.00%
              Development
              Total                                                $687.91            100%           5.16%
             Note: Totals affected by rounding.


About $3.1 Billion of USAID’s Total Obligations Were Made to Multilateral Organizations
and U.S. Federal Agencies
Our analysis identified approximately $3.1 billion that USAID provided to 3 multilateral organizations (MLOs)
and 12 U.S. federal agencies from 2002 to June 2013.
The World Bank was the top recipient of USAID funds in this category with over $1.7 billion. The World Bank
administers the Afghanistan Reconstruction Trust Fund (ARTF). The trust fund provides financing for the
Government of Afghanistan’s budget and has supported World Bank-administered reconstruction projects.
USAID contributed over $1.7 billion dollars to the trust fund. In addition to the trust fund, the World Bank also
administered a project supporting business environment reform in Afghanistan. The United Nations received
the second highest amount of total awards among MLOs and U.S. government agencies. Combined United
Nations programs5 received over $929 million. United Nations efforts include health, economic development,
governance, and humanitarian relief programs. Of the federal agencies, the U.S. Army Corps of Engineers
(USACE) received the most obligations during this period, with six awards worth $68.6 million. USACE used
USAID funding to build transportation and governance infrastructure. See table 7 for the top-ten MLO and
federal agency recipients of USAID obligations.




5   United Nations organizations include UNDP, UNOPS, The World Health Organization, and the World Food Program




SIGAR-14-27-SP Afghanistan Reconstruction: USAID Contracts, Cooperative Agreements and Grants                     Page 10
          Table 7: Obligations Made to Multilateral Organizations and U.S. Federal Agencies by USAID, 2002
          to June 2013
                                                                               Percentage
                                                                   Value of                   Percentage
                                                                                        of
            Implementing Partner                                Obligations                      of Total
                                                                                MLO/USG
                                                                ($ Millions)                   Obligation
                                                                               Obligations
            World Bank                                               1,746        55.48%         13.10%
            United Nations                                             928        29.51%          6.97%
            International Organization for Migration                   279         8.87%          2.09%
            United States Army Corps of Engineers                        69        2.18%          0.51%
            Embassy Protective Detail Services                           49        1.57%          0.37%
            U.S. Department of State                                     29        0.94%          0.19%
            U.S. Department of Agriculture                               14        0.43%          0.10%
            United States Institute of Peace                              9        0.29%          0.07%
            Federal Aviation Authority                                    5        0.17%          0.04%
            U.S. Geological Survey                                       5         0.16%          0.04%
            Sub-Total (10)                                           3,134         99.61         23.51%
            Remaining Implementing Partners (8)                         12         0.39%          0.09%
            Grand Total (18)                                         3,147         100%          23.61%
            Note: Totals affected by rounding.



AGENCY COMMENTS

USAID reviewed a draft of this report and provided comments. USAID identified minor discrepancies in a limited
number of figures presented here. However, the identified discrepancies were small and, after verifying our
original received data and analysis, we chose to keep our initial figures in the final report in order to maintain
internal consistency within our dataset.
USAID pointed out a factual error in how a legal instrument was categorized and provided clarifying information
as to what kind of efforts are included in one of the project sectors. In both cases the additional information
was incorporated into the final draft of this report.




SIGAR-14-27-SP Afghanistan Reconstruction: USAID Contracts, Cooperative Agreements and Grants                Page 11
APPENDIX I: RECIPIENTS OF CONTRACT AND COOPERATIVE AGREEMENT AWARDS TOTALING
OVER $10 MILLION

Contracts
We identified 40 entities, including for-profit firms, multilateral organizations, non-governmental organizations,
and U.S. federal agencies, that received contract awards equal to or greater than $10 million from USAID for
activities in Afghanistan. The total amount of contract awards to the 40 implementers who received total
contract awards equal to or greater than $10 million is just over $7 billion, or 98 percent of total contract
awards.
                Table 8 – USAID Contract Awards for Afghanistan Reconstruction Greater than $10
                Million, 2002 to June 2013

                                                                                    Award Value
                 Contract Recipient
                                                                                           ($M)
                 The Louis Berger Group Inc./Black & Veatch                              1,051
                 DAI-Development Alternatives, Inc.                                         886
                 Chemonics International, Inc.                                              822
                 The Louis Berger Group Inc.                                                699
                 Deloitte Consulting LLP                                                    326
                 ACS-Aircraft Charter Solutions, Inc                                        231
                 Black & Veatch Special Projects Corporation                                230
                 ARD ASSOCIATES IN RURAL DEVELOPMENT                                        223
                 CREATIVE ASSOCIATES INTERNATIONAL INC                                      206
                 AECOM INTERNATIONAL DEVELOPMENT, INC                                       181
                 ADB(Asian Development Bank)                                                180
                 Tetra Tech, Inc.                                                           168
                 IRD-International Relief and Development, Inc.                             165
                 Checchi and Company Consulting, Inc (CCCI)                                 143
                 MSH-Management Sciences for Health                                         136
                 AEAI-Advanced Engineering Associates International                         118
                 BearingPoint, Inc.                                                         104
                 BearingPoint, Inc/Deloitte                                                  79
                 IFES- INTERNATIONAL FOUNDATION FOR ELECTION
                                                                                                  71
                 SYSTEM
                 USACE-United States Army Corps of Engineers                                      68
                 DH-Descon Holdings (Pvt) Ltd.                                                    66
                 EMG-Emerging Markets Group                                                       56
                 Embassy Protective Detail Services                                               49
                 MSI-Management Systems International, Inc                                        46
                 World Council of Credit Unions, Inc                                              41
                 Futures Group International, LLC                                                 39
                 CDM-Camp Dresser Mckefee Constructors, Inc                                       38
                 AMG-Afghanistan Management Group                                                 35
                 SUNY-STATE UNIVERSTITY OF NEW YORK                                               34

SIGAR-14-27-SP Afghanistan Reconstruction: USAID Contracts, Cooperative Agreements and Grants              Page 12
                 DPK CONSULTING                                                                32
                 Perini Management Services, Inc.                                              28
                 INTERNATIONAL RESOURCES GROUP LTD (IRG)                                       25
                 U.S Department of State                                                       24
                 Mashriq Engineering and Construction Company
                                                                                               24
                 (MECC
                 Technologists, Inc.                                                           21
                 DANIDA-Danish International Development Agency                                18
                 VEGA (Volunteers for Economic Growth Alliance)                                18
                 USDA-United States Department of Agriculture                                  14
                 Global Strategies Group                                                       11
                 Total                                                                     6,706


Cooperative Agreements
We identified 36 entities, including for-profit firms, multilateral organizations, and non-governmental
organizations, that received cooperative agreement awards equal to or greater than $10 million from USAID for
activities in Afghanistan. The total amount of the cooperative agreements awarded to the entities that received
over $10 million in cooperative agreements is $3 billion, or 97 percent of total cooperative agreement awards.
                Table 9 - USAID Cooperative Agreement Awards for Afghanistan Reconstruction Greater
                than $10 Million, 2002 to June 2013
                                                                                      Award Value
                Cooperative Agreement Recipient
                                                                                             ($M)
                IRD-International Relief and Development, Inc.                                895
                IOM-International Organization for Migration                                  279
                CADG - Central Asia Development Group                                         274
                TAF-The Asia Foundation                                                       157
                AED-Academy for Educational Development                                       146
                CEPPS-Consortium For Elections and Political Process
                                                                                              141
                Strengthening
                DAI-Development Alternatives, Inc.                                            131
                MSH-Management Sciences for Health                                            131
                CARE International                                                            100
                MERCY CORPS                                                                     74
                CI-Counterpart International, Inc.                                              72
                CREATIVE ASSOCIATES INTERNATIONAL INC                                           72
                JHPIEGO Corporation                                                             62
                UNDP-United Nations Development Program                                         59
                UN-HABITAT                                                                      54
                ICMA-International City/County Management Association                           42
                American University of Afghanistan                                              42
                INTERNEWS NETWORK, INC                                                          40
                UNOPS- United Nations Office of Project Services                                38
                Roots of Peace                                                                  30


SIGAR-14-27-SP Afghanistan Reconstruction: USAID Contracts, Cooperative Agreements and Grants          Page 13
                DI-DEMOCRACY INTERNATIONAL                                                      29
                UNDP/UNOPS                                                                      25
                EDC-Education Development Center                                                23
                UNIVERSITY OF MASSACHUSETTS                                                     21
                PACT-INTERNEWS                                                                  21
                NEMESTUN-New Mexico State University                                            16
                Oasis International Schools Inc.                                                15
                SFL-Shelter for Life, Inc.                                                      15
                CHF-Community Housing Foundation International                                  14
                Washington State University                                                     12
                PU-PURDUE UNIVERSITY                                                            12
                WORLD VISION                                                                    11
                WILDLIFE CONSERVATION SOCIETY                                                   11
                CIPE-Center for International Private Enterprise                                11
                WCS-Wildlife Conservation Society                                               11
                CRS-Catholic Relief Services                                                    10
                Total                                                                       3,096


Grant Awards for Afghanistan Reconstruction
We identified 20 entities including multilateral organizations and non-governmental organizations that received
grant awards from USAID for activities in Afghanistan. Total reported USAID grant awards in Afghanistan were
$2.2 billion.
              Table 10 - USAID Grant Awardees for Reconstruction in Afghanistan, 2002 to June 2013
                                                                                        Award Value
               Grant Recipient
                                                                                      ($Thousands)
               World Bank                                                                1,746,215
               UNOPS- United Nations Office of Project Services                            372,036
               UNDP-United Nations Development Program                                     268,825
               WHO                                                                         107,337
               IFDC-International Fertilizer Development Center                             32,531
               TAF-The Asia Foundation                                                      24,122
               DANIDA-Danish International Development Agency                                 6,000
               ARZU INC                                                                       4,192
               VFH-Voice For Humanity                                                         3,000
               ASI-Air Serv International                                                     2,298
               WFP-WORLD FOOD PROGRAM                                                         1,693
               UNICEF-United Nations Int. Children Emergency Fund                             1,270
               SUNY-STATE UNIVERSTITY OF NEW YORK                                             1,156
               CRS-Catholic Relief Services                                                   1,070
               UNHAS/WFP-United Nations Humanitarian Air Service                                714
               CARE International                                                               616
               USEA-US Energy Association                                                       581

SIGAR-14-27-SP Afghanistan Reconstruction: USAID Contracts, Cooperative Agreements and Grants          Page 14
               AKTC- AGHA KHAN TRUST FOR CULTURE                                                553
               CSIS-Center for Strategic and International Studies                              232
               PDT America, LTD                                                                  35
               Total                                                                       2,204




SIGAR-14-27-SP Afghanistan Reconstruction: USAID Contracts, Cooperative Agreements and Grants         Page 15
APPENDIX II: USAID SUBCONTRACTORS

In addition to tracking prime awards, USAID closely monitors the subcontracts that derive from the agency’s
initial awards. USAID provided a list of all sub-awardees for the period between 2002 and June 2013. USAID
identified a total of 179 sub-awardees to USAID contracts, cooperative agreements, and grants. Sub-awardees
include for-profit entities and non-governmental organizations. Of the total 179 sub-awardees, 25 entities
received sub-awards in excess of $10 million. Total awards to the 25 entities were equal to $623 million. Table
11 includes the 25 entities and total award amounts.

                   Table 11 – Sub-Awardees that Received $10 Million or More in USAID Contracts,
                   Grants, and Cooperative Agreements for Afghanistan Reconstruction, 2002 to
                   June 2013

                    Sub-Awardee                                           Award Value ($M)
                    International Executive Service Corps                               82
                    International Relief and Development,                               53
                    Inc. (IRD)
                    Symbion Groupe-Power                                                   48
                    International City/County                                              44
                    Management Association
                    ISS / Safenet JV                                                       42
                    Paktiya Group of Companies                                             34
                    Mercy Corps                                                            34
                    ACDI/VOCA                                                              34
                    Mohammad Taher Haji Mardan                                             21
                    Power Generation Solution                                              19
                    Pilgrims Group Limited                                                 18
                    Siemens                                                                17
                    Sayed Bilal Sadath Construction                                        17
                    Company (SBCC)
                    Afghan Public Protection Force                                         16
                    Asia Group Int'l FZ LLC                                                16
                    AEPC/DSI JV                                                            15
                    USKOM                                                                  14
                    Mondial Risk Management Company                                        14
                    Symbion-Areva (JV)                                                     14
                    Venco Imtiaz Co.                                                       13
                    Garda World                                                            13
                    Rahman Safi Impact Consultancy                                         12
                    MTU Onsite Energy Corp.                                                11
                    Overseas Strategic Consulting (OSC)                                    11
                    Dr. Hesamuddin Hamrah                                                  11
                    Total                                                                 623




SIGAR-14-27-SP Afghanistan Reconstruction: USAID Contracts, Cooperative Agreements and Grants           Page 16
APPENDIX III: RELATED SIGAR FINANCIAL AUDITS

Title                                                                                     SIGAR Audit Number
Audit of Costs Incurred by Chemonics International, Inc. in Support of
                                                                                                SIGAR 13-01
USAID’s Alternative Livelihoods Program-Southern Region
Audit of Costs Incurred by Cardno Emerging Markets Group, LTD. in
Support of USAID’s Afghanistan State-Owned Enterprises Privatization,                           SIGAR 13-02
Excess Land Privatization, and Land Titling Project
Audit of Costs Incurred by Futures International, LLC in Support of
USAID’s Project for Expanding Access to Private Sector Health Products                          SIGAR 13-03
and Services in Afghanistan
USAID’s Technical Support to the Central and Provincial Ministry of Public
Health Project: Audit of Costs Incurred by Management Sciences for                              SIGAR 13-04
Health
USAID’s Program to Support the Loya Jirga and Election Process in
                                                                                                SIGAR 13-05
Afghanistan: Audit of Costs Incurred by The Asia Foundation
USAID’s Human Resources and Logistical Support Program: Audit of
                                                                                                SIGAR 13-08
Costs Incurred by International Relief and Development, Inc.
USAID’s Alternative Development Project South/West: Audit of Costs
                                                                                                SIGAR 13-09
Incurred by Tetra Tech ARD
Available: www.sigar.mil




SIGAR-14-27-SP Afghanistan Reconstruction: USAID Contracts, Cooperative Agreements and Grants        Page 17
                             The mission of the Special Inspector General for Afghanistan
         SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                             reconstruction of Afghanistan by conducting independent and
                             objective audits, inspections, and investigations on the use of
                             taxpayer dollars and related funds. SIGAR works to provide accurate
                             and balanced information, evaluations, analysis, and
                             recommendations to help the U.S. Congress, U.S. agencies, and
                             other decision-makers to make informed oversight, policy, and
                             funding decisions to:

                                         improve effectiveness of the overall reconstruction
                                          strategy and its component programs;
                                         improve management and accountability over funds
                                          administered by U.S. and Afghan agencies and their
                                          contractors;
                                         improve contracting and contract management
                                          processes;
                                         prevent fraud, waste, and abuse; and
                                         advance U.S. interests in reconstructing Afghanistan.


Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                             site (www.sigar.mil). SIGAR posts all publically released reports,
 Reports and Testimonies     testimonies, and correspondence on its Web site.




                             To help prevent fraud, waste, and abuse by reporting allegations of
 To Report Fraud, Waste,     fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
and Abuse in Afghanistan     hotline:
Reconstruction Programs                  Web: www.sigar.mil/fraud
                                         Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                         Phone Afghanistan: +93 (0) 700-10-7300
                                         Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                         Phone International: +1-866-329-8893
                                         Phone DSN International: 312-664-0378
                                         U.S. fax: +1-703-601-4065




                             Public Affairs Officer
            Public Affairs               Phone: 703-545-5974
                                         Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                         Mail: SIGAR Public Affairs
                                          2530 Crystal Drive
                                          Arlington, VA 22202
